Nos. 19-368, 19-369
IN THE

Supreme Court of the United States
FORD MOTOR COMPANY,

Petitioner,

v.

MONTANA EIGHTH JUDICIAL DISTRICT COURT, ET AL.,

Respondents.
FORD MOTOR COMPANY,

Petitioner,

v.
ADAM BANDEMER,

Respondent.

On Writs of Certiorari to
the Montana and Minnesota Supreme Courts
Brief of Amicus Curiae Product Liability Advisory
Council, Inc. in Support of Petitioner
DAVID R. GEIGER

Counsel of Record

STEPHEN STICH
FOLEY HOAG LLP
155 Seaport Boulevard
Boston, MA 02210
(617) 832-1124
dgeiger@foleyhoag.com
Counsel for Amicus Curiae
March 4, 2020

TABLE OF CONTENTS
TABLE OF AUTHORITIES....................................... iii
INTEREST OF THE AMICUS CURIAE..................... 1
SUMMARY OF ARGUMENT ...................................... 2
ARGUMENT ................................................................ 4
I.

DUE PROCESS PROHIBITS THE
EXERCISE OF SPECIFIC
JURISDICTION OVER A NONRESIDENT DEFENDANT UNLESS IT
ENGAGED IN IN-STATE CONDUCT
THAT FORMS AN ESSENTIAL
ELEMENT OF ITS ALLEGED
LIABILITY TO PLAINTIFF ............................. 4
A.

The Reciprocity And Proportionality
Of A Non-Resident’s In-State Rights
And Obligations That Are At The
Heart Of International Shoe Require
This Result ................................................. 5

B.

A Defendant’s Due Process Right To
Predictability Of The Jurisdictional
Consequences Of Its Conduct
Requires The Same Result ...................... 14

C.

Principles of Federalism And
Territorial Sovereignty Inherent In
Due Process Also Require This
Result ....................................................... 17

D.

This Result Is Beneficial For
Businesses And Consumers Alike .......... 19
i

II.

THE MINNESOTA AND MONTANA
SUPREME COURT DECISIONS
VIOLATE DUE PROCESS.............................. 22
A.

The Decision In Bandemer Violates
Due Process.............................................. 22

B.

The Decision In Gullett Violates Due
Process ..................................................... 25

CONCLUSION ........................................................... 27

ii

TABLE OF AUTHORITIES
CASES

Bandemer v. Ford Motor Co.,
931 N.W.2d 744 (Minn. 2019).............. 22, 23, 24, 26

Bristol-Myers Squibb Co. v. Superior Court,

137 S. Ct. 1773 (2017).................................... passim

Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) .......................................... 10, 14

Calder v. Jones,
465 U.S. 783 (1984) ..................................................8

Daimler AG v. Bauman,
571 U.S. 117 (2014) ................................ 4, 10, 12, 14

Ford Motor Co. v. Mont. Eighth Judicial Dist.
Ct., 443 P.3d 407 (Mont. 2019) ........................ 25, 26
Goodyear Dunlop Tires Operations, S.A. v.
Brown, 564 U.S. 915 (2011) ....................... 12, 18, 25
Hanson v. Denckla,

357 U.S. 235 (1958) ........................................ passim

Helicopteros Nacionales De Colombia v.
Hall, 466 U.S. 408 (1984) ....................................... 10
Hertz Corp. v. Friend,
559 U.S. 77 (2010).................................................. 14

International Shoe Co. v. Washington,

326 U.S. 310 (1945) ........................................ passim

iii

J. McIntyre Mach., Ltd. v. Nicastro,
564 U.S. 873 (2011) .................................. 5, 6, 13, 21

McGee v. Int’l Life Ins. Co.,
355 U.S. 220 (1957) ................................................ 18

Shaffer v. Heitner,
433 U.S. 186 (1977) ................................................ 14

Walden v. Fiore,

571 U.S. 277 (2014) ........................................ passim

World-Wide Volkswagen Corp. v. Woodson,

444 U.S. 286 (1980) ........................................ passim

ADDITIONAL AUTHORITIES
Born, Reflections on Judicial Jurisdiction in
International Cases, 17 GA. J. INT’L & COMP.
L. 1, 15 (1987) ........................................................ 21
Restatement (Second) of Conflict of Laws ................ 19
Restatement (Third) of Torts: Product
Liability ........................................................ 9, 12, 15

iv

INTEREST OF THE AMICUS CURIAE1
The Product Liability Advisory Council, Inc.
(PLAC) is a non-profit professional association of
corporate members representing a broad crosssection of American and international product
manufacturers.2 These companies seek to contribute
to the improvement and reform of law in the United
States and elsewhere, with emphasis on the law
governing the liability of product manufacturers and
others in the supply chain.
PLAC’s perspective is derived from the
experiences of a corporate membership that spans a
diverse group of industries in various facets of the
manufacturing sector. In addition, several hundred
of the leading product litigation defense attorneys
are sustaining, i.e., non-voting, members of PLAC.
Since 1983, PLAC has filed more than 1,100 briefs as
amicus curiae in both state and federal courts,
including this Court, on behalf of its members,
presenting the broad perspective of product
manufacturers seeking fairness and balance in the

Petitioner in both cases has submitted to the Clerk a
letter granting blanket consent to the filing of amicus briefs,
and amicus obtained written consent from respondents in both
cases. Pursuant to S. Ct. Rule 37.6, PLAC states that no
counsel for a party wrote this brief in whole or in part, and no
counsel or party made a monetary contribution intended to
fund the preparation or submission of this brief. No person or
entity, other than PLAC, its members or its counsel, has made
a monetary contribution toward preparation or submission of
this Brief of Amicus Curiae.
1

PLAC’s current corporate membership is listed at
https://plac.com/PLAC/About_Us/Amicus/PLAC/Amicus.aspx.
2

1

law as it affects the development and sale of products
of value to businesses and consumers.
SUMMARY OF ARGUMENT
This Court has made clear in its personal
jurisdiction jurisprudence, including most recently in
Bristol-Myers Squibb Co. v. Superior Court, 137 S.
Ct. 1773 (2017), that a state may exercise personal
jurisdiction over a non-resident defendant consistent
with due process only when plaintiff’s claim “aris[es]
out of or relat[es] to” defendant’s in-state conduct.
Id. at 1780. Although the actual holdings of the
Court’s cases should have made the meaning of this
phrase clear, the lower courts, as evidenced by the
decisions now before the Court, unfortunately
continue to interpret it incorrectly.
In addition to the actual holdings of its cases,
three distinct aspects of this Court’s personal
jurisdiction case law make clear that due process
permits a state to exercise specific jurisdiction over a
foreign defendant only when its in-state conduct

forms an essential element of its alleged liability to
plaintiff.

First, regardless of the sometimes varying
verbiage employed by the Court’s specific jurisdiction
cases, the ineluctable fact is that they have all
ultimately cited and relied on the seminal case of
International Shoe Co. v. Washington, 326 U.S. 310
(1945). There the Court noted that non-residents
who exercise the privilege of performing conduct instate obtain the benefit of the state’s protections for
that conduct.
Correspondingly, however, that
conduct “may give rise to obligations,” id. at 319, in
which case it is consistent with “fair play and
substantial justice,” id. at 320, to “require[] the
2

corporation to respond to a suit brought to enforce”
those “obligations,” id. at 319. At bottom, the Court
adopted a principle of reciprocity between a nonresident
defendant’s
in-state
rights
and
responsibilities, under which the state may hold
defendant liable for all, but only, its in-state
conduct.
Since a foreign defendant creates
“obligations” to a plaintiff by in-state conduct only
when that conduct is an essential element of
plaintiff’s claims, due process permits personal
jurisdiction only in that instance.
Moreover, the Court’s decisions make clear that a
defendant’s
right
to
predictability
of
the
jurisdictional consequences of its conduct, so
defendant can structure its affairs accordingly, is at
the core of due process. Clarifying that “arises out
of or relates to” requires the in-state performance of
an essential element of plaintiff’s claim supplies such
predictability, while an uncabined interpretation of
the nearly infinitely elastic “related to” phrase does
not.
In addition, the Court has made clear that due
process incorporates fundamental principles of
federalism that impose territorial limitations on the
power of a state’s courts, and prevent them from
infringing on the sovereignty of sister states. These
principles likewise require restricting a state’s
jurisdiction over a non-resident to instances in which
it has engaged in in-state conduct that actually gives
rise to a legal obligation to plaintiff, i.e., is an
essential element of his claim.
Finally, and not incidentally, clarifying that this
is indeed what due process requires will yield
significant benefits for both businesses and
consumers. Businesses could structure their affairs
3

to reduce costs, which would benefit consumers
either through lower prices or new or improved
products. And because businesses’ liability-related
costs would be roughly proportionate to their sales or
other activity in the different states, pricing in each
state would more accurately reflect the costs of
businesses’ conduct there as opposed to in other
locales.
Under the “essential element” standard, the
Court must reverse the decisions of the Minnesota
and Montana Supreme Courts, since in neither case
did petitioner design, manufacture or sell the
product that allegedly injured plaintiff in-state. And
both decisions violate the reciprocity, predictability
and respect for federalism that due process requires.
ARGUMENT
I.

DUE
PROCESS
PROHIBITS
THE
EXERCISE OF SPECIFIC JURISDICTION
OVER A NON-RESIDENT DEFENDANT
UNLESS IT ENGAGED IN IN-STATE
CONDUCT THAT FORMS AN ESSENTIAL
ELEMENT OF ITS ALLEGED LIABILITY TO
PLAINTIFF

This Court made clear in Bristol-Myers Squibb
Co. v. Superior Court, 137 S. Ct. 1773 (2017)
(“BMS”), and Daimler AG v. Bauman, 571 U.S. 117
(2014), that due process prohibits the exercise of
specific jurisdiction over a non-resident defendant
unless “the suit . . . aris[es] out of or relat[es] to the
defendant’s contacts with the forum.” BMS, 137 S.
Ct. at 1780 (quoting Daimler, 571 U.S. at 118).
Unfortunately, although the combination of the
Court’s actual holdings in BMS and Walden v. Fiore,
4

571 U.S. 277 (2014), would seem to have made the
meaning of “aris[e] out of or relat[e] to” fairly clear,
many lower state and federal courts, including in the
decisions now before the Court, have interpreted it
incorrectly.
As set forth below, beyond the holdings of BMS
and
Walden, three fundamental principles
adumbrated in this Court’s case law teach that due
process allows a state to exercise specific jurisdiction
over a non-resident defendant only where its in-state

conduct forms an essential element of its alleged
liability to plaintiff.
The Court’s clear
pronouncement that this is indeed the law will not
only effectuate due process, it will benefit businesses
and consumers alike.
A.

The Reciprocity And Proportionality Of
A Non-Resident’s In-State Rights And
Obligations That Are At The Heart Of
International Shoe Require This Result

1. At the core of personal jurisdiction is an
implied agreement between defendant and sovereign.
In exchange for obtaining rights or benefits from a
state’s protections, the defendant undertakes to
submit to the jurisdiction of its courts. In some
circumstances, a defendant’s conduct, such as a
corporation’s choice to incorporate in a state or an
individual’s choice to be physically present there at
the time of service, constitutes an agreement to be
subject to the state’s general jurisdiction. See J.
McIntyre Mach., Ltd. v. Nicastro, 564 U.S. 873, 881
(2011) (plurality) (“Each of these examples reveals
circumstances, or a course of conduct, from which it
is proper to infer an intention to benefit from and
5

thus an intention to submit to the laws of the forum
State.”).
But specific jurisdiction also results from such an
implicit agreement. When an out-of-state defendant
“‘purposefully avails itself of the privilege of
conducting activities within the forum State, thus
invoking the benefits and protections of its laws,’ . . .
it submits to the judicial power of an otherwise
foreign sovereign to the extent that power is
exercised in connection with the defendant’s
activities touching on the State.”
Id. (quoting
Hanson v. Denckla, 357 U.S. 235, 253 (1958))
(emphasis added).
The terms of a non-resident defendant’s implicit
agreement to submit to jurisdiction as a result of instate conduct were originally described in the
seminal case of International Shoe Co. v.
Washington, 326 U.S. 310 (1945). There the Court
noted that “to the extent that a [foreign] corporation
exercises the privilege of conducting activities within
a state, it enjoys the benefits and protection of the
laws of that state.” Id. at 319. Correspondingly,
however, those activities “may give rise to
obligations, and so far as those obligations arise out

of or are connected with the activities within the
state,” it comports with the “traditional conception of
fair play and substantial justice,” id. at 320, or is not
“undue,” to “require[]the corporation to respond to a
suit brought to enforce” those “obligations,” id at 319.
(emphases added). In other words, the implicit
foreign defendant-sovereign agreement is defined by
a principle of reciprocity and proportionality: if
defendant engages in in-state conduct that affords it
rights or protections under state law, then the state

6

equally may hold defendant to account for claims to
enforce obligations founded on that same conduct.
By the same token, under these reciprocity
principles, when a foreign defendant has not
obtained forum state benefits from its conduct
forming the basis for a plaintiff’s claim, the state
may not exercise jurisdiction over defendant with
respect to those claims. For example, in Hanson,
beneficiaries of a Florida decedent who were entitled
to any property over which she had an unexercised
power of appointment brought suit in Florida against
the Delaware trustee of decedent’s trust, arguing she
had not effectively exercised her appointment power.
Because the trustee had not acted with respect to the
trust (or indeed done any business) in Florida, the
Court held the state lacked personal jurisdiction, as
the “suit cannot be said to be one to enforce an
obligation that arose from a privilege the defendant
exercised in Florida.” Hanson, 357 U.S. at 252
(emphasis added).
It follows from this principle of reciprocity and
proportionality of rights and obligations that a state
may hold a foreign defendant to account for in-state
conduct only where that conduct forms an essential
element of defendant’s alleged liability to plaintiff.
After all, a defendant’s in-state conduct can only
create “obligations” that may be “enforced” by a
plaintiff when the conduct is essential to defendant’s
claimed liability to plaintiff.
By way of examples, this standard fully explains
the holdings of both BMS and Walden, the Court’s
two most recent specific jurisdiction decisions, and
indeed those decisions effectively adopt an “essential
element” standard without explicitly using that
term. Thus in Walden, the Court held due process
7

forbade the Nevada courts to exercise jurisdiction
over a Georgia drug enforcement agent on Nevada
plaintiffs’ claims that defendant had unlawfully
seized plaintiffs’ cash at a Georgia airport and filed a
false affidavit there to sustain the seizure.
The
Court held that plaintiffs’ claim to have suffered
injury in Nevada “does not evince a connection
between [defendant] and [the forum],” 571 U.S. at
290 (emphasis added),3 and the “relevant conduct
occurred entirely in Georgia,” id. at 291 (emphasis
added).
For the Walden plaintiffs’ claim, the essential
elements were a seizure or affidavit without
adequate grounds, and that conduct occurred outside
the forum. Moreover, in reaching its result the Court
explicitly characterized the “crux” of its earlier
decision in Calder v. Jones, 465 U.S. 783 (1984),
which affirmed California courts’ jurisdiction over a
libel claim based on a newspaper article that was
written in Florida but widely published in California,
as being based on the fact of California publication,
since “publication to third persons is a necessary
element of libel.” 571 U.S. at 287-88 (emphasis
supplied). Thus, “[t]he proper question is not where
the plaintiff experienced a particular injury or effect
but whether the defendant’s conduct connects him to
the forum in a meaningful way.” Id. at 290.
Similarly, in BMS the Court held due process
forbade the California courts to exercise jurisdiction
3 Logically, since specific jurisdiction is a reciprocal burden
imposed on defendant’s in-state conduct in exchange for
benefits obtained through that conduct, the fact that causation
or damages occur in the forum is not a basis for jurisdiction, as
those elements of a plaintiff’s claim do not represent a
defendant’s conduct but rather the results of such conduct.

8

over a non-resident pharmaceutical manufacturer on
non-residents’ claims for injury from defendant’s
prescription drug. Even though defendant had sold
more than $900 million of the drug in California over
a six-year period, 137 U.S. at 1778, and had
contracted with a company in California to distribute
the drug nationally, id. at 1783, defendant did not
develop, manufacture or create its labeling or
marketing for the drug in California, id. at 1778, nor
could plaintiffs “track [their own medication]
particularly to [the California distributor],” id. at
1783. Accordingly, as “all the conduct giving rise to
the nonresidents’ claims occurred elsewhere,” the
state courts “cannot claim specific jurisdiction.” Id.
at 1782 (emphasis added).
For the BMS plaintiffs’ product liability claims,
the essential elements would have included
designing,
drafting
the
warnings
for
or
manufacturing the product, and selling it. See
Restatement (Third) of Torts: Products Liability, § 1
(“One engaged in the business of selling or otherwise
distributing products who sells or distributes a
defective product is subject to liability for harm to
persons or property caused by the defect.”) (emphasis
added); id. § 2 (“A product is defective when, at the
time of sale or distribution, it . . . is defective in
design, or is defective because of inadequate
instructions or warning.”) (emphasis added). The
Court’s reference to defendant’s “conduct giving rise
to the [plaintiffs’] claims” makes clear it was focused
precisely on those elements.
2. In addition, defining specific jurisdiction in
this “essential element” fashion would both properly
ground the Court’s “arises out of or relates to”
standard in its original jurisprudential roots and
9

eliminate, or at least substantially ameliorate, lower
courts’ confusion surrounding its meaning.
Some of the confusion may have stemmed from
linguistic variations in the Court’s opinions. For
example, the Court has used different subjects in
sentences that contain the “arises out of or relates to”
verb clause. In BMS and Daimler, the subject was
“the suit,” BMS, 137 S. Ct. at 1780 (quoting Daimler,
571 U.S. at 118), and in Helicopteros Nacionales De
Colombia v. Hall, 466 U.S. 408 (1984), the similar
“controversy” and “cause of action,” id. at 414. In
Burger King Corp. v. Rudzewicz, 471 U.S. 462
(1985), it was the potentially different “alleged
injuries,” id. at 472. And in Walden, the subject (in
that instance only of the phrase “arise out of,” shorn
of “relates to”) was even more abstract: the
relationship “among the defendant, the forum, and
the litigation.” Walden, 571 U.S. at 284. But as
originated by this Court in International Shoe, the
actual subject of the clause was that the “obligations”
that plaintiff seeks to “enforce” must arise out of
defendant’s forum activities. Int’l Shoe, 326 U.S. at
319-20.
At least equally conducive to confusion, however,
is the very presence of the words “or relates to” in the
governing “arises out of or relates to” clause, as the
words pose two obvious problems. For one thing,
they inevitably raise the questions whether and to
what extent they enlarge upon the meaning of

10

“arises out of.” For another, they are inherently
nearly infinitely elastic in meaning.4
Regardless of the precise verbiage of the Court’s
specific jurisdiction decisions, however, the
ineluctable fact is that they all ultimately cited and

relied on the fairness-based reciprocity and
proportionality logic of International Shoe, under

which the state may exercise jurisdiction only over
claims that seek to “enforce” “obligations” that result
from the non-resident defendant’s “privilege of
conducting activities within [the] state.” Int’l Shoe,
326 U.S. at 319-20. Accordingly, returning to those
fundamental moorings would both be entirely proper,
and would do much to eliminate, or at least
minimize, any confusion among the lower courts.
3. In addition, although the Court has made clear
that the “primary concern” of due process is
protecting defendants against undue burden in being
involuntarily haled into court, not plaintiffs’ election
of where to sue, BMS, 137 S. Ct. at 1780 (citing
World-Wide Volkswagen Corp. v. Woodson, 444 U.S.
The same can be said for the “or connected with” phrase
that the Court has also sometimes used, including in
International Shoe itself. E.g., Int’l Shoe, 326 U.S. at 319
(providing for jurisdiction over “obligations [that] arise out of or
are connected with the activities within the state”). Perhaps it
is for these reasons that the Court has sometimes entirely
deleted these secondary phrases from its jurisdictional
formulation, and rested entirely on “arises out of.” E.g.,
Hanson, 357 U.S. at 251 (“The cause of action in this case is not
one that arises out of an act done or transaction consummated
in the forum State.”) (emphasis added); Walden, 571 U.S. at 284
(“[T]he relationship [among defendant, the forum and litigation]
must arise out of contacts that the defendant himself creates
with the forum State.”) (emphasis added, and emphasis,
citation and internal quotation marks omitted).
4

11

286, 292 (1980))5, the “essential element” standard
would not leave plaintiffs who claim harm from a
defective product remediless.
For one thing,
plaintiffs who purchased the product at issue in their
home state, whether directly from the ultimate
manufacturer or from an intermediate seller or
retailer, would always have a home-state remedy
against the immediate selling entity.
See
Restatement (Third) of Torts: Product Liability, § 1
cmt. e (“The rule stated in this Section provides that
all commercial sellers and distributors of products,
including nonmanufacturing sellers and distributors
such as wholesalers and retailers, are subject to
liability for selling products that are defective.
Liability attaches even when such nonmanufacturing
sellers or distributors do not themselves render the
products defective and regardless of whether they
are in a position to prevent defects from occurring.”).
Indeed, in most circumstances, such plaintiffs
would have several other states in which they could
sue. Under Daimler, they can always sue any
ultimate manufacturer entity that is “essentially at
home” in any U.S. state in that forum. Daimler, 571
U.S. at 122 (quoting Goodyear Dunlop Tires
Operations, S.A. v. Brown, 564 U.S. 915, 919 (2011)).
Moreover, under the “essential element” standard
they could likely sue even a foreign manufacturer in
the U.S. state in which it initially sold its product,
such as to a nationwide U.S. distributor. Compare
BMS, 137 S. Ct. at 1783 (no jurisdiction where

Accord Walden, 571 U.S. at 284 (“Due process limits on
the State’s adjudicative authority principally protect the liberty
of the nonresident defendant—not the convenience of plaintiffs
or third parties.”).
5

12

plaintiffs could not “track” their product to in-state
national distributor).6
Furthermore, the “essential element” test applies
in all cases, not just those involving allegedly
defective products, and in many of these cases
defendants will have performed essential claim
elements in plaintiff’s home state. For example, a
resident who slips and falls in a negligently
maintained local branch store of a non-resident
corporation could sue the corporation in her home
state. Similarly, a local company that a non-resident
corporation engaged to render services in the area
but then refused to pay could sue the corporation for
breach of contract in the local forum.

Where defendant’s liability-creating conduct did not occur
in the forum, this Court has not hesitated to find personal
jurisdiction lacking despite the fact that plaintiff resided or was
injured there, or both. See, e.g., Walden, 571 U.S. at 279-280
(Nevada lacked personal jurisdiction over civil rights claims
against Georgia defendant even though plaintiffs lived in
Nevada); Nicastro, 564 U.S. at 878 (New Jersey lacked personal
jurisdiction over product liability claims against British
corporation even though plaintiff was New Jersey resident and
was injured there); World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286, 289-290, 298 (1980), (Oklahoma lacked personal
jurisdiction over product liability claims against two New York
corporations even though plaintiffs’ automobile accident
occurred in Oklahoma); Hanson, 357 U.S. at 251 (Florida lacked
personal jurisdiction over trust-related declaratory judgment
action against Delaware trustee even though plaintiffs were
Florida residents).
6

13

B.

A Defendant’s Due Process Right To
Predictability Of The Jurisdictional
Consequences Of Its Conduct Requires
The Same Result

1. Beyond the fundamental concept of reciprocity
of a defendant’s in-state rights and obligations that
underlies International Shoe, the Court has also
repeatedly made clear that a defendant’s right to
predictability of the jurisdictional consequences of its
conduct is a core aspect of due process. See Burger
King, 471 U.S. at 472 (quoting Shaffer v. Heitner,
433 U.S. 186, 218 (1977) (Stevens, J., concurring in
the judgment)) (holding that due process requires
defendants to have “fair warning that a particular
activity may subject [them] to the jurisdiction of a
foreign sovereign”). See also Daimler, 571 U.S. at
137 (quoting Hertz Corp. v. Friend, 559 U.S. 77, 94
(2010) (“Simple jurisdictional rules . . . promote
greater predictability.”).
Predictability in the application of jurisdictional
rules is essential for “potential defendants to
structure their primary conduct with some minimum
assurance as to where that conduct will and will not
render them liable to suit.” World-Wide Volkswagen,
444 U.S. at 297.
Among other things, such
predictability enables defendants to prepare
themselves for potential liability in a given state,
including by “procuring insurance, passing the
expected costs on to customers, or, if the risks are too
great, severing [their] connection with the State.” Id.
This predictability requirement of due process
also requires that a state be permitted to exercise
specific jurisdiction only where defendant’s in-state
conduct forms an essential element of its alleged
liability to plaintiff. Under that rule, a defendant
14

could reliably predict whether its conduct would
subject it to personal jurisdiction in a given state.
For example, a manufacturer that designs or sells a
particular product in a state could expect to be
subject to jurisdiction there for claims alleging that
specific product was defectively designed.
See
Restatement (Third) of Torts: Products Liability, § 1
(providing liability for one “who sells or distributes a
defective product”) (emphasis added); id. § 2
(providing products may be “defective in design, or
. . . because of inadequate instructions or warning.”)
(emphasis added). Based on this predictability, the
manufacturer would be able to choose where to locate
its product design and sales operations.
By contrast, subjecting a non-resident defendant
to jurisdiction whenever it has engaged in any forum
conduct that is in some undefined way “related to”
plaintiff’s claims would abnegate the predictability
that due process requires.
As noted earlier, the
words “related to,” without a definition tied to the
essential elements of plaintiff’s claims, can be nearly
infinitely elastic, and at least two aspects of this
elasticity would eviscerate predictability under such
a standard.
For one thing, it would be nearly impossible to
predict what conduct a court would consider
sufficiently “related to” plaintiff’s claims to count in
the jurisdictional analysis. For example, although
defendant in BMS had five research and laboratory
facilities in California, 137 S. Ct. at 1778, the Court
characterized defendant’s research there as being “on
matters unrelated to” the drug at issue, id. at 1781.
But where the drug was a blood-thinner that
prevented clotting and was promoted to reduce the
risk of heart attacks and strokes, id. at 1784
15

(Sotomayor, J., dissenting), what sort of in-state
research would be sufficiently “related” under an
uncabined “related to” standard to supply
jurisdiction? Would it be research on any therapy,
whether blood-thinner or otherwise, intended to
reduce the risk of either heart attack or stroke, or
only any such therapy aimed at both conditions, or
only blood-thinners meeting one or the other of these
criteria, or only on the drug actually at issue, or only
relating to its risks that were the subject of plaintiffs’
claims?
Further, it would be nearly impossible to predict
how a court would weigh whatever different conduct
the court did deem jurisdictionally relevant. For
example, even if a defendant such as in BMS could
know that its in-state research activities on other
drugs were sufficiently “related” to count in the
jurisdictional analysis, how would a court weigh that
conduct against the fact that indisputably relevant
conduct like defendant’s design, manufacturing,
labeling and sale of plaintiff’s product did not occur
in the state?
Nor is it an answer to suggest that predictability
would be achieved, and hence due process satisfied,
by a rule that any kind of conduct that is even in the
slightest bit “related to” plaintiff’s claims suffices to
supply jurisdiction.
For one thing, such an
interpretation would violate both the reciprocity of
in-state rights and obligations that is required by
due process, see pp. 5-13, above, and the federalism
and territoriality limitations on jurisdiction that due
process imposes, see pp. 17-19, below. In any event,
since in the modern era most businesses have some
significant degree of contact with all or virtually all
states, “related” conduct, and hence jurisdiction,
16

could be conjured up virtually everywhere. This
would be but another form of the “loose and spurious
form of general jurisdiction” that the Court rejected
in BMS. BMS, 137 S. Ct. at 1781.
C.

Principles of Federalism And Territorial
Sovereignty Inherent In Due Process
Also Require This Result

In addition to recognizing that due process
requires reciprocity of a defendant’s in-state benefits
and burdens, as well as predictability of the
jurisdictional consequences of its conduct, the Court
has emphasized that due process, “acting as an
instrument of interstate federalism,” BMS, 137 S. Ct.
at 1781, also imposes limits on state court
jurisdiction.
For one thing, these restrictions “are a
consequence of territorial limitations on the power of
the respective States.” Id. at 1780 (quoting Hanson,
357 U.S. at 251). For another, “[t]he sovereignty of
each State,” including “the sovereign power to try
causes in their courts[,] . . . implie[s] a
[corresponding] limitation on the sovereignty of all
its sister States.”
Id. (quoting World-Wide
Volkswagen, 444 U.S. at 293). These limitations are
“express or implicit in both the original scheme of the
Constitution and the Fourteenth Amendment.”
World-Wide Volkswagen, supra at 293.
The essence of these territoriality and federalism
limitations is to prohibit states from requiring a
defendant to “submit[] to the coercive power of a
State that may have little legitimate interest in the
claims in question.” BMS, 137 S. Ct. at 1780.
(emphasis added). And the Court has applied these
limitations despite the “increasing nationalization of
17

commerce.” World-Wide Volkswagen, 444 U.S. at
293 (quoting McGee v. Int’l Life Ins. Co., 355 U.S.
220, 223 (1957)).
Under these principles, a state has a “legitimate
interest” in a “claim” consistent with due process
only if it has the right to “regulate” the conduct
underlying the claim, i.e., if defendant’s conduct that
forms an essential element of the claim occurred in
the forum. See Goodyear, 564 U.S. at 919 (“Specific
jurisdiction . . . depends on . . . principally . . .
activity or an occurrence that takes place in the
forum State and is therefore subject to the State’s
regulation.”) (emphasis added). It is only in that
instance that affording the forum sovereignty over
the claim would both be consistent with “territorial
limitations” on the state’s power, BMS, 137 S. Ct. at
1780, and not infringe on the “sovereignty of . . .
sister States,” id., over the conduct at issue.
By contrast, a finding of jurisdiction whenever
defendant engaged in any vaguely “related” in-state
conduct would violate these federalism-based
limitations. Especially in the modern era, when so
many corporations engage in activities in all or most
states, all those states could claim jurisdiction over
claims when only one or at most a few of them have a

18

“legitimate interest” in regulating the actual claimcreating conduct.7
D.

This Result Is Beneficial For Businesses
And Consumers Alike

In addition, because the “essential element” test
is reasonably predictable, and allocates a business’s
liability-related
costs
among
the
states
approximately in proportion to sales or other
activities there, the test would result in benefits to
businesses and consumers alike.
As the Court has observed, a company’s litigationrelated costs often are passed on to consumers
through product pricing.
See World-Wide
Volkswagen, 444 U.S. at 297 (noting that
corporations subject to suit in a state might “pass[]
7 Again, the Court has already made clear that the fact
that the injured plaintiff is a resident of the forum does not give
the forum state a legitimate interest in subjecting the
defendant to jurisdiction. Walden, 571 U.S. at 290 (“The proper
question is not where the plaintiff experienced a particular
injury or effect but whether the defendant’s conduct connects
him to the forum in a meaningful way.”). The Court has also
made clear, however, that choice of law is a separate question
from personal jurisdiction over defendant, e.g., World-Wide
Volkswagen, 444 U.S. at 294 (even if the forum State has a
strong interest in applying its law to the controversy . . . , the
Due Process Clause, acting as an instrument of interstate
federalism, may sometimes act to divest the State of its power
to render a valid judgment”); Hanson, 357 U.S. at 254 (“The
issue is personal jurisdiction, not choice of law.”), so plaintiff’s
residency and locus of injury could be relevant factors in the
choice-of-law analysis. See, e.g., Restatement (Second) of
Conflict of Laws, § 145(2) (choice of law for tort claims to
consider multiple factors, including “the place where the injury
occurred” and “the domicil, residence, nationality, place of
incorporation and place of business of the parties”).

19

the expected costs on to customers”). Under a broad
and unpredictable “related to” jurisdictional
standard, a plaintiff could choose to sue a defendant
that has multi-state sales or other activities in any
number of different states, including ones known for
low liability thresholds and high liability awards and
costs. The resulting increased costs would frequently
be passed on to consumers, including those who do
not even live in the high-liability states.
On the other hand, as noted above, the relatively
predictable “essential element” standard would allow
businesses to structure their affairs to avoid or
minimize their sales or other activities in highliability-cost states. See World-Wide Volkswagen,
444 U.S. at 297 (observing that businesses with
“clear notice . . . can act to alleviate the risk of
burdensome litigation”).
Under the competitive
pressures of the market, the resulting savings in
liability costs and insurance premiums would often
be passed on to consumers and hence inure to their
benefit. Alternatively, businesses might reinvest
their cost savings to develop new products, improve
existing ones or expand into new markets to reach
additional consumers who would like to use their
products. Any of these results would be beneficial to
the business and to consumers alike.
In addition to lowering product costs and hence
prices, the “essential element” standard would also
allocate product costs more accurately among the
states, hence allowing for more accurate pricing and
better market efficiency. This is because companies
would tend to incur liability costs and insurance
premiums only in proportion to their sales or other
activities among the different states, so pricing in the
different states could take account of the degree of
20

activity, as well as the liability-related cost
structure, there, and consumers in low-cost locales
would not be forced to pay prices that incorporate the
liability burdens of high-cost locales.
Indeed, explicit adoption of the “essential
element” standard could help avoid potentially
onerous international repercussions for American
businesses.
Some
countries
have
enacted
“retaliatory”
jurisdictional
provisions,
which
“empower national courts to exercise jurisdiction
over foreign persons in circumstances where the
courts of the foreigner’s home state would have
asserted jurisdiction.” Born, Reflections on Judicial
Jurisdiction in International Cases, 17 GA. J. INT’L &
COMP. L. 1, 15 (1987).
Accordingly, domestic
application of an uncabined “related to” standard
could subject U.S. businesses to broad retaliatory
jurisdiction in places where they engage in only
limited and unrelated sales or other activities. And,
of course, any exorbitant costs thus imposed would
likely be borne at least in part by U.S. consumers.
All of these concerns loom largest for small
businesses, which in the modern era can readily
engage in at least some activities in all or most
states, or even internationally, but lack the resources
of large national or international companies to
absorb large and unpredictable liability costs.
Moreover, such businesses will often lack routine
access to legal advice as to where they might be
subject to suit. Cf. Nicastro, 564 U.S. at 892 (Breyer,
J., concurring in judgment) (observing absurdity of
rule that would require small businesses to be aware
of intricate legal rules). Lacking such resources, the
best they can hope for is an intuitive jurisdictional
rule.
The “essential element” test fits that
21

description, but a nebulous “related to” standard
does not.
II.

THE
MINNESOTA
AND
MONTANA
SUPREME COURT DECISIONS VIOLATE
DUE PROCESS

In both product liability cases before the Court,
Ford did not design, manufacture or sell the
allegedly defective vehicle in the forum but did
perform other conduct there, such as selling similar
vehicles, servicing vehicles and advertising. In both
cases the vehicle entered the forum through a
subsequent sale and plaintiff was eventually injured
there. In both cases the state high courts found
jurisdiction, concluding plaintiffs’ claims were
“related to” Ford’s in-state conduct. Both decisions
violate due process for all the reasons discussed in
the preceding section.
A.

The Decision In Bandemer Violates Due
Process

In Bandemer v. Ford Motor Co., 931 N.W.2d 744
(Minn. 2019), the Minnesota Supreme Court
employed a five-factor due process standard for
specific jurisdiction, but centered its analysis on
whether “Ford’s contacts with the state” were
“substantially connected or related to the litigation,”
id. at 751 (citation omitted), as “a ‘relating to’
standard . . . is a correct application of Supreme
Court precedent,” id. at 752. The court found this
standard satisfied because: (1) plaintiff’s car was a
1994 Crown Victoria, and Ford had sold 1994 Crown
Victorias to Minnesota dealerships (as well as
vehicles of all types from 2013-15), so these “sales . . .
22

are connected to the claims at issue,” id. at 754; (2) at
unspecified times Ford collected data on how its cars
performed through Minnesota dealerships and used
those data to inform design improvements and train
mechanics, which “relate[d] to” the claim because
plaintiff alleged defective design, id.; and (3) “Ford
directs marketing and advertisements directly to
Minnesotans,”8 and “[a] Minnesotan bought a Ford
vehicle.” Id.
The Minnesota court’s decision violates due
process for many reasons. For starters, it is squarely
inconsistent with the combined holdings of BMS and
Walden. BMS, 137 S. Ct. at 1778, 1782 (where
defendant did not develop or manufacture product
in-state, and plaintiffs could not “track” their
products to show defendant sold them in-state, “all

the conduct giving rise to the [plaintiffs’] claims
occurred elsewhere”) (emphasis added); Walden, 571

U.S. at 290 (“The proper question is not where the
plaintiff experienced a particular injury or effect but
whether the defendant’s conduct connects him to the
forum in a meaningful way.”) (emphasis added).9
Even if those decisions were not controlling,
however, the Minnesota court’s decision violated due
process because it did not apply the “essential
element” standard that due process requires for each
of the reasons discussed in the preceding section.
The record only contained evidence of Ford’s current
advertising, and no such advertising mentioned the Crown
Victoria. See id. at 760 (Anderson, J., dissenting).
8

The Minnesota court attempted to distinguish BMS by
the fact of plaintiff’s in-state accident and injury, Bandemer,
931 N.W. 2d at 754, but Walden had already made clear that
distinction was improper.
9

23

While the elements of plaintiff’s product liability
claims included Ford’s designing and selling
plaintiff’s allegedly defective vehicle, Ford did none
of that in Minnesota, and the in-state conduct the
court relied on did not form an essential claim
element.
Accordingly, the court departed from the specific
jurisdiction rule established by International Shoe,
as the court asked whether Ford’s in-state conduct
was somehow “relate[d] to the claim,” Bandemer, 931
N.W.2d. at 753 (emphasis in original), when the
correct standard is whether that conduct created the
legal “obligations” that plaintiff sought to “enforce,”
Int’l Shoe, 326 U.S. at 319.10
The court’s reasoning also subjected Ford to the
very unpredictability that due process prohibits.
Hence the court found it “related” that Ford sold
1994 Crown Victorias in Minnesota, as well as other
vehicles from 2013-15, see Bandemer, 931 N.W.2d. at
748, 754, but Ford would not be able to predict that
its Minnesota sales of Crown Victorias in 1994,
rather than of all Ford sedans, or all Ford vehicles,
or all Ford vehicles with the particular air bag design
challenged by plaintiff, in that year, or one of those

10 The court made a nod toward International Shoe by
asserting that Ford had purposefully availed itself of “the
privileges, benefits and protections” of Minnesota through
Ford’s actions “targeting Minnesota for sales of passenger
vehicles, including the type of vehicle at issue in this case.”
Bandemer, 931 N.W. 2d at 749-750, 751. While those were
indeed in-state activities by Ford, the “obligations” plaintiff
sought to “enforce” were not created by those activities—rather,
they were created by Ford’s designing and selling plaintiff’s car
decades earlier in other states.

24

product categories in 2013-15, or both, would be
what would count.
The court’s decision also violated the territoriality
and federalism principles that are incorporated in
due process. Holding that Ford’s design and sale of
plaintiff’s vehicle outside of Minnesota was conduct
that was “subject to the State’s regulation,”
Goodyear, 564 U.S. at 919, extended the state’s
sovereignty extraterritorially to claims in which it
had no “legitimate interest,” BMS, 137 S. Ct. at 1780,
and infringed on “the sovereignty of . . . its sister
States,” id., that did have such an interest.
B.

The Decision In Gullett Violates Due
Process

In Ford Motor Co. v. Mont. Eighth Judicial Dist.
Ct., 443 P.3d 407, 412 (Mont. 2019) (“Gullett” ), the
Montana Supreme Court adopted a due process
standard for personal jurisdiction under which it
concluded that “plaintiff’s claims ‘relate to’ the
defendant’s forum-related activities if a nexus exists
between the product and the defendant’s in-state
activity and if the defendant could have reasonably
foreseen its product being used in Montana.” Id. at
416. The court found that a nexus existed because
Ford “makes it convenient for Montana residents to
drive
Ford
vehicles
by
offering
[in-state]
maintenance, repair, and recall services,” to which
decedent’s “use of the [Ford] Explorer in Montana is
tied,” id., and because “Ford could have reasonably
foreseen the Explorer—a product specifically built to
travel—being used in Montana.” Id.
Like the decision in Bandemer, the Montana
court’s decision violates due process.
Like
Bandemer, the decision in Gullett contradicted the
25

combined holdings of BMS and Walden. See BMS,
137 S. Ct. at 1778, 1782 (no jurisdiction where
defendant was not shown to develop, manufacture or
sell plaintiff’s product in-state); Walden, 571 U.S. at
290 (jurisdictional question is not where plaintiff
experienced injury but whether defendant’s conduct
at issue occurred in forum).
Like Bandemer,
Gullett’s attempt to distinguish BMS based on the
fact of plaintiff’s in-state injury, Gullett, 433 P.3d at
417, was improper under Walden, and Gullett’s
attempt to distinguish Walden on the ground that
plaintiff there was “the only connection between the
defendant and the forum,” id, ignores the fact that
the Court’s actual holding in Walden was that
Nevada lacked personal jurisdiction because
defendant’s “relevant conduct occurred entirely [outof-state],” Walden, 571 U.S. at 291.
Also as in Bandemer, the court in Gullett did not
apply the “essential element” standard that due
process requires, as none of Ford’s Montana conduct
on which the court relied formed an essential
element of plaintiff’s design and manufacturing
defect claims, and the conduct that did underlie
those claims had occurred long before and in other
states.
Finally, as in Bandemer, Gullett violated
International
Shoe’s fundamental
reciprocity
principle since plaintiff was not seeking to “enforce”
an “obligation” that defendant created by its in-state
conduct, Int’l Shoe, 326 U.S. at 319, flouted the
predictability requirement of due process by its

26

nebulous “nexus” standard,11 and by seeking to
regulate conduct that occurred elsewhere both
exceeded the state’s territorial bounds and infringed
on the sovereignty of sister states that did have a
legitimate interest in plaintiff’s claims.
CONCLUSION
For all the foregoing reasons, the Court should
hold that due process permits a state to exercise
specific jurisdiction over a non-resident defendant
only when its in-state conduct forms an essential
element of its alleged liability to plaintiff, and should
reverse the judgments of the Minnesota and
Montana Supreme Courts.
Respectfully submitted,
DAVID R. GEIGER

Counsel of Record

STEPHEN STICH
FOLEY HOAG LLP
155 Seaport Boulevard
Boston, MA 02210
(617) 832-1124
dgeiger@foleyhoag.com

March 4, 2020

Counsel for Amicus Curiae
Product Liability Advisory Council

11 Certainly, in designing, manufacturing and selling
plaintiff’s vehicle in Kentucky and Washington in or before
1996, Ford would have been hard-pressed to predict it would be
subject to jurisdiction in Montana for alleged defects in that
vehicle some nineteen or more years later based on
maintenance, repair and recall services it would offer there at
that time.

27

